<html>
<title> - INDIAN CHILD PROTECTION AND FAMILY VIOLENCE PREVENTION ACT AMENDMENTS</title>
<body><pre>[Senate Hearing 109-478]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-478

 
 INDIAN CHILD PROTECTION AND FAMILY VIOLENCE PREVENTION ACT AMENDMENTS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 1899

TO AMEND THE INDIAN CHILD PROTECTION AND FAMILY VIOLENCE PREVENTION ACT 
TO IDENTIFY AND REMOVE BARRIERS TO REDUCING CHILD ABUSE, TO PROVIDE FOR 
                    EXAMINATIONS OF CERTAIN CHILDREN

                               __________

                             MARCH 15, 2006
                             WASHINGTON, DC


                    U.S. GOVERNMENT PRINTING OFFICE
26-699                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 1899, text of.................................................     3
Statements:
    Burrus, James H., deputy assistant director, Criminal 
      Investigations Division, FBI, Department of Justice........    24
    Chaney, Christopher P., deputy bureau director, BIA, Office 
      of Law Enforcement Services................................    22
    Cross, Terry, executive director, National Indian Child 
      Welfare Association........................................    33
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................    21
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1
    McSwain, Robert, deputy director, IHS, Department of Health 
      and Human Services.........................................    23
    Perez, Jon, IHS, Division of Behavioral Health...............    23
    Ragsdale, Pat, director, BIA, Department of the Interior.....    22
    Steele, Paul, director, Center for Justice Studies, Morehead 
      State University...........................................    35
    Suppah, Ron, chairman, Confederated Tribes of the Warm 
      Springs Reservation, Oregon................................    32

                                Appendix

Prepared statements:
    Burrus, James H. (with attachment)...........................    41
    Cross, Terry (with attachment)...............................    45
    McSwain, Robert..............................................    71
    Ragsdale, Pat................................................    73
    Steele, Paul (with attachment)...............................    75
    Suppah, Ron..................................................   107


 INDIAN CHILD PROTECTION AND FAMILY VIOLENCE PREVENTION ACT AMENDMENTS

                              ----------                              


                       WEDNESDAY, MARCH 15, 2006


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
485 Senate Russell Office Building, Hon. John McCain (chairman 
of the committee) presiding.
    Present: Senators McCain and Dorgan.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning.
    Today we will address S. 1899, The Indian Child Protection 
and Family Violence Prevention Act reauthorization. This bill 
provides a 4-year reauthorization of appropriations for child 
sexual abuse prevention and treatment grants; requires data 
collection to identify the scope of child abuse and family 
violence in Indian country; and encourages interagency 
coordination between public and private medical organizations 
in the treatment and examination of children through the use of 
tele-medicine.
    The Indian Child Protection and Family Violence Prevention 
Act was enacted in 1990 in response to the findings of the 
Senate Select Committee on Indian Affairs and the Special 
Committee on Investigations that certain BIA schools had become 
safe havens for child abusers. The investigation of these 
crimes revealed that the perpetrators knew that the reporting 
and investigation of these heinous acts were in such a sorry 
state that they would rarely be detected.
    Needless to say, the impact of this neglect on child 
victims, their families and their communities were lasting and 
tragic.
    The 1990 Act mandated the reporting and investigation of 
child abuse and required character investigations of BIA, IHS 
and tribal employees who were in contact with children. In 
addition, the Act authorized appropriations to establish a 
prevention and treatment program to be operated by the BIA and 
IHS and by tribes, which authorizations expired in 1997.
    Even before 1997, however, many of the programs provided 
for in the act never materialized. Although the obligation for 
character investigations is still in effect, it is unclear 
whether these are being conducted regularly; whether 
professionals who are required to report incidents of child 
abuse are actually doing this; and whether the mandatory 
investigations of these reports are occurring is also unclear.
    What we do know is that the grants and programs envisioned 
by the bill to address child abuse and family violence have 
received very little funding since 1990. Other programs to 
address child abuse, however, have been initiated by Federal 
agencies and by tribes.
    I look forward to hearing from the witnesses on what is 
being done today to assess and respond to the issue of child 
abuse and family violence in Indian country and to hear your 
recommendations on what should be done to give real effect to 
the goals of the Child Protection and Family Violence 
Prevention Act.
    I want to especially thank Senator Dorgan for his 
commitment on this issue. He has been ahead of it. He has had 
hearings back in North and South Dakota. I appreciate very much 
his leadership on this compelling issue.
    [Text of S. 1899 follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Just one additional comment. We all know that 
the epidemic of methamphetamine has exacerbated dramatically 
this problem. When adults fall victim to methamphetamine 
addiction, there is a dramatically increased incidence of child 
abuse, spousal abuse, and violence. According to most objective 
observers, this meth epidemic, which is affecting non-Indians 
and Indians alike, is having especially devastating effects in 
Indian country.
    This is an important issue. I know we have a war in Iraq 
and I know we have many other issues that take up the time and 
attention of this Congress, but what is happening in Indian 
country, and frankly out of Indian country, as caused by this 
methamphetamine epidemic is something that should gather the 
attention of all of us and a much higher priority.
    I want to again thank Senator Dorgan for all his efforts 
and leadership on this issue.
    Senator Dorgan.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. Mr. Chairman, thank you very much.
    You are certainly right about the methamphetamine issue and 
how it has accelerated all of these problems. I thank you very 
much for arranging this hearing. This is an important issue.
    I think I have on a previous occasion mentioned a couple of 
things. I want to do it again. One of my first acquaintances 
with this issue of child abuse occurred with a young woman 
named Tamara Demaris. I read about her and then I went down to 
the reservation and met with her and her grandfather, Reginald 
Bird Horse.
    The story of Tamara was a very simple and tragic story. She 
was put in a foster home at age 3. The caseworker who put her 
in a foster home was working on 150 cases, and didn't of course 
have time to check out the home, so this 3-year old girl gets 
put in a home.
    There is a drunken party at the home on a Saturday night. 
This 3-year old girl has her arm broken, her nose broken and 
some of her head hair pulled out by the roots. She will live 
with those scars forever. One person handling 150 cases, it was 
impossible.
    I held a hearing after that and had all of the tribes in 
our region in. I remember one of the young ladies who came to 
the hearing. She said, ``On my reservation, I am in charge of 
these child abuse and sexual abuse issues.'' She said, ``I have 
a stack of folders that high sitting on the floor in my office 
of alleged sexual abuse and child abuse on my reservation.'' 
She said, ``I have no investigators and when I deal with a 
child who needs some help, I have no car. I have to go beg and 
borrow a car to take this child to a clinic or something.''
    And then she began weeping and sobbing uncontrollably. 
About 2 weeks later, she quit her job. Her point was it is just 
hopeless. We have allegations, she said, that are 
uninvestigated.
    So my sense is this is a very serious problem. You can make 
a case that adults can fend for themselves, but not children. 
Child abuse anywhere in this country is a very serious 
situation. On America's Indian reservations, it is very serious 
because there are so few resources with which to deal with it.
    The chairman just talked about the money for the Iraq war. 
We are going to have, I guess it is a $92-billion request, 
which includes Katrina, restoration of military funds. Just the 
small crumbs that would fall off of a request like that would 
work wonders in addressing some of these issues of child abuse 
that exist in areas where you have this unbelievable poverty, 
where you have the ravages of methamphetamine, and all the 
other things that prey upon these innocent children.
    So this is not just some other issue. It is critically 
important that we find the resources to make sure that these 
children are protected.
    Mr. Chairman, again I appreciate your calling this hearing 
as evidence of a priority for this committee. Thank you very 
much.
    I appreciate the witnesses coming and sharing with us today 
as well.
    The Chairman. Thank you very much, Senator Dorgan.
    We welcome Pat Ragsdale, who is the director of the Bureau 
of Indian Affairs [BIA], who is accompanied by Christopher 
Chaney, who is the deputy bureau director of the BIA; Robert 
McSwain, deputy director of the Indian Health Service at the 
Department of Health and Human Services. He is accompanied by 
John Perez, who is the director of Indian Health Service, 
Division of Behavioral Health.
    And James H. Burrus, who is the acting assistant director 
of criminal investigation division, Federal Bureau of 
Investigations.
    Welcome, and we will begin with you, Mr. Ragsdale. Welcome 
back.

  STATEMENT OF PAT RAGSDALE, DIRECTOR, BIA, DEPARTMENT OF THE 
 INTERIOR, ACCOMPANIED BY CHRISTOPHER B. CHANEY, DEPUTY BUREAU 
       DIRECTOR, BIA, OFFICE OF LAW ENFORCEMENT SERVICES

    Mr. Ragsdale. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman, Mr. Vice Chairman. Before I 
formally begin, I wish to offer our regrets and sympathy to 
Senator Inouye and his family in the loss and passing of his 
wife, Margaret. We are very sorry for him and his extended 
family and friends. He has indeed been a champion for Indian 
country during his service here in the Senate.
    The Chairman. We will convey those condolences to Senator 
Inouye. I know he appreciates them. Thank you.
    Mr. Ragsdale. Thank you.
    I am pleased to testify on the Indian Child Protection, 
Family Violence Prevention Act Amendments. With your 
permission, Mr. Chairman, I will summarize my views and request 
that my written statement be included in the record.
    The Chairman. All written statements will be made part of 
the record, without objection.
    Mr. Ragsdale. Thank you, Mr. Chairman.
    With me today are Chris Chaney and Jerry Gidner, the deputy 
directors for the Office of Law Enforcement Services and the 
Office of Tribal Services, respectively, whose offices have 
program elements that would be involved if these amendments are 
enacted.
    I might tell you that I am a former tribal law enforcement 
officer with about 7 years experience, who investigated child 
abuse allegations of all kinds. We appreciate the committee's 
support in this endeavor to better protect our children.
    Subject to the views of the Department of Justice and 
Health and Human Services response for the implementation of 
this bill, the Department of the Interior supports overall the 
elements of this bill which would identify impediments to 
reporting, prosecuting and treating child abuse as proposed. We 
also believe the committee should consider elements that lead 
to better prevention, support of good parenting, family and 
community development.
    The department supports the addition of the felony child 
neglect provision to the Federal criminal code to allow Federal 
prosecution of serious instances of harm to our children. 
Currently, these offenses are left to prosecution in tribal 
courts. While prosecution does occur in tribal forums of 
justice, the tribal courts are inhibited by Federal law, which 
limits the sentence and fines to less than 1 year or $5,000 for 
the conviction of offenses in tribal court.
    We cite one example in our testimony of an intoxicated 
person harming a toddler, a real case scenario. Another example 
would be adults who manufacture dangerous chemical substances 
in their homes or exposing children to other toxic substances. 
There are many examples the provision would be applied to that 
would be useful to both law enforcement and prosecutors to 
ensure justice of those who endanger or harm the welfare of our 
children.
    We look forward to working with the committee and our 
colleagues in tribal and Federal agencies to protect Indian 
children and ensure justice to those who harm them.
    I hope we can be responsive to your questions.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Ragsdale appears in appendix.]
    The Chairman. Thank you.
    Mr. McSwain.

  STATEMENT OF ROBERT McSWAIN, DEPUTY DIRECTOR, INDIAN HEALTH 
 SERVICE, DEPARTMENT OF HEALTH AND HUMAN SERVICES, ACCOMPANIED 
   BY JON PEREZ, DIRECTOR, INDIAN HEALTH SERVICE DIVISION OF 
                       BEHAVIORAL HEALTH

    Mr. McSwain. Good morning. Thank you, Mr. Chairman and Vice 
Chairman Dorgan.
    We are pleased to have this opportunity to testify on 
behalf of Secretary Leavitt and Dr. Charles Grim, the director 
of the Indian Health Service, on S. 1899, the Indian Child 
Protection and Family Violence Act Amendments of 2005. I will 
summarize my written statement and ask that it be entered into 
the record please.
    Secretary Leavitt has raised awareness of tribal issues 
within the department by using the authorities of the Native 
Americans Program Act of 1974 and the Interdepartmental Council 
for Native American Affairs to address cross-cutting issues 
throughout the department. This has resulted in many 
collaborations with other operating divisions within the 
department. Dr. Grim serves as the vice chair of this council.
    Since the enactment of Public Law 101-630 in 1990, the 
department and the IHS has addressed what we see as two 
critical parts of the act. First are the administrative parts 
that ensure that our health care providers and support 
personnel who have duties and responsibilities involving 
contact with children, some 9,500 out of 15,000 employees, meet 
minimum standards of character.
    The act requires the IHS and BIA to compile a list of all 
authorized covered positions. In November 2002, the IHS 
published its interim final rule establishing minimum standards 
of character for positions and incorporating the technical 
amendments contained in the Native American Laws Technical 
Corrections Act of 2000.
    Second, and equally important, are the program elements. As 
you know, our mission is about raising the health status and 
spiritual health of American Indians to the highest level 
possible. Those include our community-based health care 
delivery system and partnerships with Indian communities and 
other Federal agencies, namely the BIA. In 1996, the IHS 
instituted the Domestic Violence and Child Abuse Prevention 
Initiative to address violence against women and children, and 
child abuse, and neglect in American Indian and Alaska Native 
communities.
    In collaboration with the BIA, the IHS-BIA Child Protection 
Handbook was published in 2005. This handbook is linked to a 
website sponsored by the University of Oklahoma Center on Child 
Abuse and Neglect. A copy of this handbook, the CD, is 
submitted as a part of our testimony.
    In addition, since 1990, the IHS has enhanced its resource 
management IT system, which is our automated patient record 
management system, to enable identification and tracking of 
child abuse cases that come into our facilities. As you know, 
the RPMS reporting system has been a mainstay of our total 
health care delivery system for the last 25 years.
    It is important to point out that much of our program 
effort is community-based. It is about enabling American Indian 
and Alaska Native communities to have tools to address child 
abuse and neglect. We will continue to reach out and expand our 
partnerships with other Federal and tribal communities to 
address child protection.
    Thank you, and we will be pleased to answer questions.
    [Prepared statement of Mr. McSwain appears in appendix.]
    The Chairman. Thank you very much.
    Mr. Burrus.

   STATEMENT OF JAMES H. BURRUS, DEPUTY ASSISTANT DIRECTOR, 
      CRIMINAL INVESTIGATIONS DIVISION, FEDERAL BUREAU OF 
              INVESTIGATION, DEPARTMENT OF JUSTICE

    Mr. Burrus. Good morning, Chairman McCain, Vice Chairman 
Dorgan and members of the Committee on Indian Affairs. I 
appreciate the opportunity to appear and provide testimony 
about the FBI and its work in Indian country, especially as it 
relates to the protection of Indian children.
    Before I begin, I would like to ask Senator Dorgan, 
regarding those allegations of child abuse, if those were on 
North Dakota reservations, may I work with your staff to 
resolve those? Thank you, because that should not happen. We 
have all the reservations in North Dakota and we should not 
have unaddressed allegations of child abuse.
    The FBI has a long history of service to the Native 
American people throughout the United States, and dedicated 
special agents of the FBI's Indian country program work hard to 
deliver quality law enforcement services to tribal communities 
of all sizes. We remain strongly committed to our role in 
Indian country and to the partnerships with tribal, local, 
State and Federal agencies in Indian country.
    There are 561 federally recognized tribes in the United 
States, and 297 Indian reservations with over 1 million Native 
American residents on or near reservation lands. The FBI has 
law enforcement responsibility on more than 200 of those Indian 
reservations and Federal criminal jurisdiction over acts 
directly related to Indian gaming regardless of jurisdictional 
status.
    The FBI has 114 special agents addressing over 2,000 Indian 
country crimes and 22 field offices. The FBI's priority in 
Indian country focuses on the most serious crimes of violence, 
including homicide, child sexual and physical abuse, and 
violent assault. FBI investigations in these priority 
categories comprise over 70 percent of all FBI investigations 
in Indian country.
    The challenges do not end there, as crimes related to gangs 
and drugs are on the increase, as the chairman and Senator 
Dorgan talked about. Indian gaming investigations are 
important, and the FBI always stands ready to protect tribal 
communities from political corruption. The FBI in Indian 
country is simultaneously addressing many different aspects of 
crime in Indian country and remains fully engaged.
    From the period covering fiscal years 2003 to 2006, the FBI 
initiated 1,658 investigations and made 537 arrests in matters 
involving Indian child sexual abuse. During the same period, 
the FBI initiated 134 investigations and made 39 arrests 
involving Indian child physical abuse. This represents 
approximately 30 percent of all FBI investigations in Indian 
country during that period. Crimes against Indian children have 
been and will remain a top priority for the FBI.
    The FBI routinely receives reports of Indian child abuse 
from various law enforcement agencies in Indian country, 
including the Bureau of Indian Affairs Office of Law 
Enforcement Services. In cases of Indian child abuse reports 
received by FBI field divisions, investigations are conducted 
either by FBI special agents or task force members working with 
the FBI on Indian country Safe Trails Task Forces.
    Additionally, the FBI receives referrals of allegations of 
Indian country abuse from other public service entities, such 
as schools, medical professionals, and child protective service 
organizations. Some of these referrals are a direct result of 
the FBI's participation on multidisciplinary teams or child 
protection teams in Indian communities. There may be instances 
where child abuse complaints are received and investigated by 
other law enforcement agencies, but the FBI and other law 
enforcement partners in Indian country strive to ensure all 
allegations of child abuse are reported to us and immediately 
addressed.
    Our partnerships with Indian country law enforcement in 
tribal communities are critical to our success in addressing 
Indian child abuse. There are several successful programs in 
Indian country that I would like to highlight.
    Since 2004, the FBI has supported a tribal tele-medicine 
initiative in South Dakota, a joint effort by the FBI's 
Minneapolis Division, Midwest Children's Research Center, 
Indian Health Service, the Department of Justice, Rosebud Sioux 
Tribe, Yankton Tribe, Midwest Regional Children's Advocacy 
Center, and the National Children's Alliance. The goals of this 
initiative are to provide a means to introduce forensic, 
pediatric specialists early into the Indian country child abuse 
investigations and to build stronger multidisciplinary teams in 
Indian country.
    This program utilizes video tele-conferencing capability, 
along with specialized audio and video equipment to connect the 
examining physician in Indian country with child abuse medical 
experts in an off-site location.
    The FBI also supports the Tohono O'odham Reservation 
Children's House, a joint effort between the Tohono O'odham 
Nation police department, the FBI, the Southern Arizona 
Children's Advocacy Center, which serves to exponentially 
enhance the overall investigative effectiveness in addressing 
child sexual assaults. TORCH provides child victims and their 
families an immediate, safe, child-friendly and culturally 
sensitive environment that is conducive to effective forensic 
interviewing.
    In circumstances where the establishment of a permanent 
forensic center is not an option, the FBI partners with other 
organizations to seek creative solutions to the problem. One 
example is the Child Health Children's Mobile Advocacy Center 
of Northern Arizona. The mobile unit in Arizona travels to or 
near the victims' reservations to prevent the child and family 
from having to travel long distances to an advocacy or medical 
facility for interview and physical examination. By delivering 
the forensic interview and sexual assault examination 
capability to the child victim, the traumatic effect on the 
child and family is vastly reduced.
    The FBI is committed to preparing Indian country law 
enforcement and specifically special agents with the knowledge 
skills required to address such important investigations. Since 
1997, we have trained nearly 5,500 Indian country law 
enforcement officers and agents, in close association with the 
BIA's Indian Police Academy. The FBI is committed to protecting 
Native American children from abuse, and we look forward to 
working with this committee to accomplish this worthwhile goal.
    I would be happy to answer questions, Mr. Chairman.
    [Prepared statement of Mr. Burrus appears in appendix.]
    The Chairman. Thank you very much.
    Mr. Ragsdale, you have been around a long time. Do you 
remember the Boone case?
    Mr. Ragsdale. Yes, sir; I certainly do.
    The Chairman. Have you had any followup reports recently as 
to the situation in that community as regards to recovery from 
the terrible psychological blows, as well as immediate problems 
that they faced?
    Mr. Ragsdale. No, sir; Now that you bring it up, I will do 
that. I certainly do remember the Boone cases, in which Boone 
was the perpetrator at Cherokee, NC, as I recall.
    The Chairman. Do me a favor and get us a written status 
there. It was one of the most, as you may recall, one of the 
most horrendous things I have ever been associated with. We 
committed at that time that we would have a long-term 
rehabilitation program there, and I would like to know.
    Mr. Ragsdale. Yes, sir; We had the same situation at Hopi. 
I was more involved.
    The Chairman. Boone was a Hopi.
    Mr. Ragsdale. Okay, I am confusing that with the Cherokee, 
North Carolina case.
    The Chairman. I think you are confusing that. The Boone 
case was a Hopi situation.
    Mr. Ragsdale. I do know that in the Boone case, there was a 
massive effort by providers to deal with the families and the 
victims of child abuse in that particular case.
    The Chairman. I remember. Give me a followup as to what the 
status is.
    Mr. Burrus, Senator Dorgan and I have come to the 
conclusion that the problems of child abuse in particular, but 
other problems, have been dramatically exacerbated by the 
methamphetamine, rise of methamphetamine. Has that been your 
conclusion?
    Mr. Burrus. That is certainly one of the factors, sir.
    The Chairman. Do you believe that child abuse is on the 
rise?
    Mr. Burrus. Yes, sir.
    The Chairman. You know something, I know that Senator 
Dorgan has to go in about 10 minutes. I yield to you, and then 
go back. Go ahead. I yield to Senator Dorgan.
    Senator Dorgan. I have to step out and I will be back. 
Thank you, Mr. Chairman.
    Let me ask a couple of questions. First of all, this 
authorization occurred back 15 years ago, really. We began with 
some hearings in 1988 and 1989 in this committee, and then 
passed a piece of legislation. We had hearings again in 1995 on 
the reauthorization of the act; hearings in the 108th Congress 
to reauthorize the act, and hearings now.
    I am trying to understand, with a direction from Congress 
about this issue and with an issue that is pretty clearly a 
serious issue, what the Indian Health Service has done in terms 
of requesting funds in its budget. It appears to me that not 
much has been done in the executive branch to respond to the 
direction of Congress here. Mr. Ragsdale, Mr. McSwain, can you 
tell me what your agencies have done?
    Mr. McSwain. Senator, I think in terms of the budget 
request, it is certainly in our mental health budget. In our 
mental health budget, we have requested increases when we can, 
and certainly have had increases. I think our current budget 
for mental health is a little over $60 million. A portion of 
that is being used for many of the activities, not specifically 
as authorized under Public Law 101-630.
    Mr. Ragsdale. I left the Department of the Interior in the 
early 1990's and went back home and went to work for my tribe, 
the Cherokee Nation. I can tell you that the BIA has 
strengthened the screening process for all employees, both 
Federal and tribal, that have duties and responsibilities that 
entail the care and providing for children.
    I will tell you, based on my own personal experience, that 
our child protection law enforcement system has been 
strengthened. We have better partnerships with Federal 
authorities and tribal authorities. We developed child 
protection teams on many reservations in Indian country. I will 
not tell you that I think that they are adequate, because we 
know that there continues to be a growing problem. However, the 
Federal sponsors when I was on the tribal side did provide us 
with additional tools to investigate, train and focus on child 
abuse.
    Senator Dorgan. Well, aren't there portions of the 1990 Act 
that have never been implemented, establishment of a central 
registry for reports or information on the abuse of children in 
Indian country, for example?
    Mr. Ragsdale. Yes.
    Senator Dorgan. When you tell me what you have asked for, 
the question is, have you actually implemented a specific 
program related to the authorizing legislation that we passed? 
I mean, we in Congress said, here is a problem, here is an 
authorization bill. Has the Indian Health Service either 
implemented a specific program or has the Indian Health Service 
requested funds for the purpose of initiating a separate 
program or a specific grant program that we described in our 
authorization bill? If not, why not?
    Mr. Ragsdale. I can address this. The sexual offender 
registry, I was not here after the bill was enacted, but my 
understanding is that that particular element of the 
legislation never has been implemented because of problems with 
due process and review and how you would coordinate that with 
the various tribal and State systems. Some States do have 
sexual offender registries, which law enforcement uses as a 
resource. But I just cannot answer the question about why the 
national registry was not implemented.
    Senator Dorgan. The original authorizing legislation 
provided for BIA regional Indian health resource and family 
service centers to respond to these issues. Have they been 
implemented?
    Mr. Ragsdale. The only effort that I am aware of, Senator, 
is that there were some coordinating staff placed at both the 
central office and at the regions.
    Senator Dorgan. Mr. McSwain, are you familiar with any of 
the implementation of these issues?
    Mr. McSwain. Yes; I am familiar with it, Senator. I think 
in lieu of the actual establishment of the centers, we have 
been very aggressive on implementing the 408 provisions, which 
is background checks and the like. Since that time, we have 
actually, when the technical amendments in 2002, we actually 
have terminated close to 20 people from service because they 
did not pass background checks, and going forward, we with 
background checks, 46 people have not been hired because they 
did not clear the necessary background checks in accordance 
with the law. So we have been very aggressive on it.
    In fact, we have just consolidated our HR system into five 
regions. We are sharing information around the regions in terms 
of providers who are not cleared, so that they don't pop up in 
another area and attempt to be hired. But that is in lieu of 
actually asking for any resources to implement the centers.
    Senator Dorgan. Yes; But you understand, my disappointment 
is that we have been through this before, and we are now going 
to go through it again. Let's assume that we pass this 
reauthorization bill. What would change, if anything? You 
either have the will to do these things or you don't in the 
various portions of the administration. I would say through 
several administrations, I think what has happened, some 
administrations have been better than others in their requests, 
but we now know that, for example, in the Indian Health 
Service, about 40 percent of the health needs of Indians are 
unserved; about 60 percent are served, some 60 to 65 percent 
are served; the rest unserved.
    That being the case, you know, you all come and tell us, 
well, we are doing as well as we can, but there is so much that 
is not done. I don't know whether it is a matter of the lack of 
will by the agencies, deciding, well, we are just not going to 
do that. Or it is a lack of money, and you really can't come to 
the table and say, we don't have the funds to do this; we are 
desperately short of funds because the Office of Management and 
Budget describes to you what you are going to get when it comes 
up in the President's budget, and then you can't come and say 
much about that. If you were to be critical of that, you 
probably wouldn't be up here a second time.
    So I mean, it is disappointing to me because this is one of 
those areas where I think this is not optional. We have a 
responsibility and a requirement to really aggressively protect 
these kids. There is not much reason to go through the motions 
of an authorization bill that addresses these problems if you 
are not going to implement some of these solutions and consider 
them seriously.
    Mr. Chairman, thank you. I am going to step out. I will be 
back.
    The Chairman. Thank you. I would also like to point out the 
obvious to my friend from North Dakota that we in the 
appropriations process perhaps have not done what we should do 
as well. Maybe you and I should maybe get a letter to the 
appropriators requesting some of those funds be directed. But 
we need the support of the witnesses today in your testimony in 
order to give us the weight to argue for that.
    Thank you, Senator Dorgan.
    Mr. Burrus, going back to our previous line of 
conversation, there is an increase, in your view, of child 
abuse incidents on Indian reservations. You said one of the 
causes was, well, tell me some of the other causes?
    Mr. Burrus. There are historical causes, unemployment. I do 
not have a background in social work, but from my experience as 
an investigator and as the assistant special agent in charge of 
Minneapolis, with all these reservations, certainly there are 
so many different things that contribute to it, alcoholism, 
unemployment, and despair.
    The Chairman. I understand that. I appreciate it very much, 
but those problems, tragically, have been with Indian country 
for a long time, but now we are seeing another increase in 
child abuse cases. So it seems to me there is an added factor 
in there, and that may be methamphetamine. That was what I was 
trying to get at.
    Now, we all know that since 9/11, FBI assets have been 
diverted from some areas into protecting the homeland in anti-
terrorist activities, which is certainly logical. I do not know 
anyone who would argue with that. Have you had to divert some 
of your assets from Indian country?
    Mr. Burrus. No, sir; in 2001, our use of Indian country 
agents was around 100 or 105. Today, it is around 114, so we 
have actually increased our presence, thanks in large part to 
the resources that Congress has given us to increase and expand 
our areas in Indian gaming, in violent crimes, and in gangs.
    The Chairman. In the last, say, year or 2 years, do you 
know how many child abuse cases were prosecuted and how many 
convictions were obtained, in whatever period of time you are 
keeping these numbers?
    Mr. Burrus. Just 1 minute.
    The Chairman. Sure.
    Mr. Burrus. I do not have those figures, sir. I have the 
figures for arrests and investigations, but I do not have 
prosecutions. I can get that for you.
    The Chairman. Would you please for the record? I think it 
would be helpful.
    Mr. Burrus. Thank you, sir.
    The Chairman. What is the record of arrests, then?
    Mr. Burrus. From 2003 to 2006, 537 arrests in Indian child 
sexual abuse, and 39 arrests in Indian child physical abuse.
    The Chairman. Thank you.
    Can tribes, Mr. Burrus, access national databases for 
tracking child abusers? Do you know?
    Mr. Burrus. If you are referring to----
    The Chairman. Maybe Mr. Ragsdale knows the answer to that?
    Mr. Ragsdale. I can only speak based upon my individual 
experience, but I think depending on how creative tribal law 
enforcement agencies are, that they can.
    The Chairman. They can.
    Mr. Ragsdale. There are some impediments, but generally if 
you work cooperatively with the State agencies and with the 
FBI, information is available.
    The Chairman. Mr. McSwain, do you share the view of Mr. 
Burrus that these incidents are on the increase in Indian 
country, of child abuse?
    Mr. McSwain. We have a system, in fact I will have Dr. 
Perez answer, but we have averaged about 4,500 events hitting 
our system, understanding that with the health care system, the 
ones that hit us are the critical ones. They are the ones that 
hit our system where they are captured. We have a fair amount, 
and I think I need to say that in the program side of the 
house, we have a lot going on with the dollars that are 
appropriated.
    I would like to have Dr. Perez answer.
    The Chairman. I think maybe you did not understand me. Let 
me repeat the question. Is it your view that the incidence of 
child abuse in Indian country is going up? That was my 
question, not the non-response you just gave me.
    Mr. McSwain. Well, let me just reflect on the data.
    The Chairman. Is it your view? Mr. McSwain, I am asking 
your opinion. You can answer yes or no.
    Mr. McSwain. It is going up.
    The Chairman. Thank you very much.
    Mr. Ragsdale, is that your view also?
    Mr. Ragsdale. Yes, sir; in fact, on the San Carlos 
Reservation, I understand that we have, 30 to 60 meth babies 
that we are now going to have to treat. I want to be forthright 
with the committee. It is my view that we do not have enough 
adequate resources in law enforcement and health services to 
treat the victims of not only child abuse, but the epidemic of 
meth and other dangerous substances in Indian country. I know 
that from personal experience.
    The Chairman. I thank you.
    Mr. McSwain, would you like to elaborate for the record? Go 
ahead please. I am sorry if I interrupted you.
    Mr. McSwain. What I was explaining, Senator, is the fact 
that we have put in place a system that is actually tracking 
more carefully the actual incidence of child abuse as it hits 
our system. Dr. Perez is actually the one who is managing this 
whole process, and we have seen some numbers. The problem we 
have is, is it the reporting or is it the events? But generally 
speaking, even controlling for both, there is a definite 
increase.
    The Chairman. Thank you very much.
    Doctor, would you like to add anything to that? It is not 
necessary, but if you would like to, please go ahead.
    Mr. Perez. Let me just add a couple of things. I think when 
we are talking about the legislation, particularly from the 
program side, that what has happened with us at IHS is there 
are many promises that are not completely realized yet. If I 
were to frame it, that would be how I would put it.
    We have, for example, demonstration projects that we 
started. The demonstration projects were a direct result of the 
legislation. The fact is that we actually have hard numbers 
now. We may not know exactly how to interpret those numbers, 
but we have hard numbers.
    We are not guessing anymore. These are actual hard data. 
That is a result of the Act, the fact that we are actually 
routinely doing reviews now of everyone that comes through. On 
top of what I do here in Washington, DC, I am also on staff at 
Phoenix Indian Medical Center. I can assure you that the 
staffing requirements and the background checks are exhaustive.
    But what you are asking is how do we bring this forward. 
From a program point of view, we have lots of roads that we can 
go down depending upon the funding that might be there for 
them.
    The Chairman. Thank you very much.
    We may be a little bit unfair here because methamphetamine 
is a national problem, international problem. But from most of 
the information that I have received, including a very in-depth 
study that was in the New York Times a couple of weeks ago, the 
burden is falling disproportionately on Indian reservations. So 
I appreciate the witnesses's testimony today. We will try to 
get the attention of our colleagues on this issue.
    If you have additional information or recommendations how 
we can best address this issue, we would dearly love to hear 
about it.
    Go ahead, Mr. Burrus. Thank you.
    Mr. Burrus. Senator McCain, if I might, when you asked me 
child abuse cases, or if child abuse in my opinion is on the 
increase, I said yes. I think so much of what we hear about 
empirically was the basis for my opinion. My colleague has 
handed me some information. Actually, the number of cases has 
leveled off, and that is a little bit troubling, but I think it 
may be a bit misleading, too, because we certainly do not have 
all the data from all the reservations.
    So I am going to stick by my story and say I believe it is 
on the increase, but I wanted to qualify that by saying it is 
difficult to prove when I look at the number of FBI cases and 
specifics. I want to clarify that.
    The Chairman. Thank you. But I think if you talk to any 
Indian tribal leader, especially those that are in border areas 
where a lot of this stuff is coming through, I think you would 
receive not only anecdotal evidence, but hard evidence of a 
dramatic increase as a result of meth, just as in non-Indian 
country. Any local law enforcement person in Arizona will tell 
you we are seeing an increase because, again, this meth does 
such terrible things to people and one of the first victims 
seems to be the helpless.
    I thank the witnesses. Thank you very much.
    Our next panel is Ron Suppah, who is the chairman of the 
Confederated Tribes of Warm Springs Reservation of Oregon, who 
is becoming a frequent visitor here; and Terry Cross, who is 
the executive director of the National Indian Child Welfare 
Association; and Paul Steele, who is the director of the Center 
for Justice Studies at Morehead State University in Kentucky.
    Welcome back to you, Mr. Chairman, and we will begin with 
you. Please proceed, Mr. Chairman.

 STATEMENT OF RON SUPPAH, CHAIRMAN, CONFEDERATED TRIBES OF THE 
               WARM SPRINGS RESERVATION OF OREGON

    Mr. Suppah. Mr. Chairman, members of the committee, good 
morning.
    The Chairman. Thank you.
    Mr. Suppah. I am Ron Suppah, tribal council chairman of the 
Confederated Tribes of the Warm Springs Reservation of Oregon. 
Thank you for this opportunity to be here today to testify in 
support of S. 1889, the Indian Child Protection and Family 
Violence Prevention Reauthorization Act of 2005.
    This is extremely needed legislation. The Warm Spring Tribe 
located in north-central Oregon, share many of the modern 
characteristics of Indian reservation life. Our communities are 
rural and many individual dwellings are isolated. Economic 
opportunities are limited and unemployment and poverty rates 
are persistently high. Unfortunately, so too are rates of child 
abuse and family violence.
    About 4,400 people live on the Warm Springs Reservation; 
3,300 are tribal members and of them about 1,600 are 18 years 
old or younger. Last year during 2005, 453 Warm Springs 
children received services from our child protective services 
or CPS. That is up from 402 children that received CPS services 
in 2002. These numbers are very distressing and our tribe is 
doing all we can to try to address this problem.
    Because we are exempt from Public Law 280, and our 
reservation is almost all tribal trust land, we have exclusive 
jurisdiction over child welfare issues, allowing us to fashion 
and run a program without competing State regulations. But we 
try to work closely with the State of Oregon and are one of the 
few tribes in the Nation with a tribal-State title IV(e) foster 
care maintenance payment agreement that treats us much like a 
State for developing and maintaining a foster care program.
    But even with our fairly comprehensive child protective 
services program, key jurisdiction differences do remain. Non-
Indians on our reservation with criminal child abuse charges 
have to be referred to the State, and Federal child abuse 
charges require calling in the FBI. Also, the local public 
schools that educate our children first report signs of child 
abuse to the county, and the county then sends them along to 
us.
    S. 1899 seeks to address these sorts of problems by 
providing for a broader sharing of child abuse data among 
jurisdictions and urging cooperation among agencies. But more 
than anything else, the act itself and its funding must be 
reauthorized.
    Addressing child abuse and family violence is very labor-
intensive. Our police, our courts, prosecutors, youth services 
and medical services are all involved. But child protective 
services must tie together and provide a tremendous range of 
services. One on one care and attention often from specialists 
is essential.
    At Warm Springs, our CPS capacity to deliver those services 
is severely strained. We have a staff of just 19, including 
three caseworkers, who must each handle well in excess of 100 
cases a year. We need assistance almost across the board.
    Mr. Chairman, I am sure other tribes across the country 
have similar problems. Child abuse and family violence are 
silent and generally out of the public eye, but they are 
devastating to our communities.
    So this act must be reauthorized and the BIA and IHS must 
commit to seek the appropriations that will help fulfill the 
hopes that our children represent for our communities and our 
future. S. 1899 will help meet that promise.
    That concludes my testimony. Thank you. I guess maybe just 
a general statement for the committee. Mr. Chairman, I was not 
able to bring our child protection expert with me today, so I 
may have to submit answers to your questions for the record.
    [Prepared statement of Mr. Suppah appears in appendix.]
    The Chairman. Thank you very much, Mr. Chairman. Thank you 
for coming.
    Mr. Cross, welcome.

 STATEMENT OF TERRY CROSS, EXECUTIVE DIRECTOR, NATIONAL INDIAN 
                   CHILD WELFARE ASSOCIATION

    Mr. Cross. Thank you.
    I want to thank the committee for asking for this 
testimony. My name is Terry Cross. I am the executive director 
of the National Indian Child Welfare Association. We are an 
organization national in scope, membership-driven. We work with 
tribes all over the Nation, providing training, technical 
assistance, consultation, policy analysis and conducting 
research in this area.
    The problem of child abuse and neglect is growing in Indian 
country. The methamphetamine epidemic is affecting tribes 
across the Nation, not just in border communities, but across 
our Nation. We have an increasing problem, at the same time we 
have decreasing resources.
    This is a complex area. Child protection, whether it is in 
Indian country or not, is complex. It is one of the most 
important responsibilities of any government. It requires three 
major things to address it. One is ownership, a belief that 
there is a problem, and the right to sovereignty to do 
something about it; the stewardship to address the problem, in 
other words, the political will to address it; and finally, the 
capacity, which means the infrastructure and the resources to 
do something about it.
    That complexity is a major challenge across the country, 
but more so in Indian country. While reporting is difficult 
everywhere, who to report to, where to report in Indian country 
can be a major challenge. Investigations can be a major 
difficulty when it is not clear who is to investigate. 
Jurisdictional issues give us a challenge because it is not 
always clear who is responsible, either for the prosecution or 
even the services, whether those services are child protection 
services or the mental health services that you mentioned 
following up on serious cases of child abuse and neglect.
    Funding is a major area, complex both in Indian country and 
mainstream America, but in Indian country. It seems that this 
Committee has the obligation to address those issues that are 
unique to Indian country, but the whole Nation's child welfare 
system should be addressing the needs of all children. The lack 
of tribal access to programs like title XX social services 
block grants that are used for child welfare services across 
the Nation is appalling.
    The fact that CAPTA, the Child Abuse Prevention Treatment 
Act, does not reach tribal communities is unacceptable. The 
fact that under Title IV(b) of the Social Security Act that 
helps fund the Safe and Stable Families Act, tribes across the 
country on average receive less than $20,000 apiece. This is a 
major funding source for States and counties across the country 
to prevent child abuse and work with families.
    The fact that there are children's trust funds for child 
abuse prevention in every State in this Nation, not one of them 
available to Indian children, is not acceptable.
    Particularly, these things are appalling when we know what 
helps. We know that tribal-State agreements and local 
protocols, like the chairman from Warm Springs just talked 
about, are essential to providing effective services; cross-
deputization and interagency agreements between law enforcement 
agencies, child protection teams and multidisciplinary teams 
when they are implemented properly. I recently conducted a 
training on child protection teams for a number of people from 
across the country in tribal communities, most of whom had no 
child protection teams in place.
    We have seen that tribal control in exercising tribal 
sovereignty on child welfare issues improves services across 
the board. There are cultural strengths models, holistic models 
that work with the whole family, that prevent child abuse and 
help families solve their own problems. These things work in 
Indian country. Family group conferencing, family group 
decisionmaking are approaches that work in Indian country. 
Systems of care approaches work in Indian country.
    But none of these can be in place without the resources, 
and without the help to get those things in place. Technical 
assistance is needed throughout Indian country to help 
implement programs where there are resources.
    The National Indian Child Welfare Association is deeply 
committed to improving data collection. It is essential to 
informing the stewardship with a public will to do something 
about this. We continue to work on a demonstration project 
showing how tribal data can be shared across the Federal data 
systems.
    A study to examine the impediments of reducing child abuse 
in Indian country is essential. We recently completed a report 
for the Bureau of Indian Affairs on the status of child welfare 
and child abuse and neglect in Indian country. That report 
needs broad dissemination.
    I want to also declare that the availability of treatment 
and prevention and technical assistance is essential, but it 
has been unfunded. There is a fundamental problem with 
insufficient resources, particularly under this particular law. 
But among many of the other things that I mentioned, and I will 
just mention the Pew Commission report on foster care financing 
reform and their recommendation that tribal children be 
covered, and tribes have the same access as all other children 
to title IV(e), the foster care reimbursement program.
    We also believe that that should be extended to CAPTA and 
other programs, as I mentioned. I would urge this committee to 
inform your colleagues about supporting those reforms as they 
emerge in the coming year.
    In conclusion, we have several recommendations. We support 
the legislation. I want to make sure that we support the 
authorization of funding for tribes to operate their own child 
welfare programs, and tribes cannot currently access resources 
from other programs; to provide authorization for funding to 
build on and refine the tribal child abuse data collection 
systems, where they are just emerging; to provide for the 
establishment of national technical assistance and training 
centers for tribes; to provide authorization for funding for 
tribes to support background checks; and to correct a flaw in 
the system in which tribes are required today to have three 
background checks on the same family because the legislation in 
the Adoption and Safe Families Act and the Child Protection and 
Family Violence Act and the Child Care Act are similar, but not 
in alignment with each other, so we have duplication of this 
background check issue. That is easy to correct.
    [Prepared statement of Mr. Cross appears in appendix.]
    The Chairman. Thank you very much.
    Mr. Steele.

STATEMENT OF PAUL STEELE, DIRECTOR, CENTER FOR JUSTICE STUDIES, 
                   MOREHEAD STATE UNIVERSITY

    Mr. Steele. Good morning, Chairman McCain, Vice Chairman 
Dorgan.
    My name is Paul Steele and I am currently director of the 
Center for Justice Studies at Morehead State University in 
Morehead, KY. Prior to assuming this role in January, I was 
associate professor of Sociology and Senior Research Associate 
of the Institute for Social Research at the University of New 
Mexico, and director of the New Mexico Criminal Justice 
Analysis Center, which is the statistical analysis center for 
that State.
    I was recently involved in research supported by the 
Department of Justice, Bureau of Justice Statistics, and the 
Justice Research and Statistics Association, which allowed me 
to study child sexual abuse on Indian lands in New Mexico. My 
testimony today will draw from that research, an updated 
version of which I have submitted for the record.
    I want to direct my comments today to three topics 
addressed in S. 1899: reporting procedures, removal of 
impediments to reducing child abuse, and the use of tele-
medicine.
    Concerning section 4, recording procedures, this section is 
amended to denote specific information concerning child abuse 
that should be collected and reported to Congress. The 
collection and reporting of this information should be very 
useful in promoting Congress's awareness of the impact of child 
abuse on Indian lands.
    Since the general intent of the law is to ensure Indian 
child protection, I recommend that this report to Congress also 
present findings of child protective service activities, as 
well as criminal justice interventions. Both law enforcement 
and child protective service agencies are legally mandated to 
conduct investigations.
    Since just a small portion of child abuse criminal cases 
from Indian country result in criminal convictions, the bulk of 
protection against re-victimization enjoyed by children and 
other family members is the result of tribal court and child 
protective service administrative interventions. In addition to 
the number of allegations and investigations, information 
concerning the number of cases validated through investigation, 
the results of court and administrative supervision, the length 
of time under child protective service supervision, and civil 
court outcomes should also be documented.
    Concerning section 5, removal of impediments to reducing 
child abuse, the report to Congress concerning removal of 
impediments also has great potential for improving conditions 
in Indian country and protecting Indian children. The report to 
accompany the bill states that:

    The committee is aware that Indian children continue to be 
traumatized by multiple interviews and physical examinations 
due to the lack of a coordinated approach by Federal, State, 
and tribal investigators, prosecutors and mental health 
professionals.

    My research lends support to the committee's assertion that 
Indian children are unnecessarily subjected to re-interviewing. 
It seems that each investigative agency requires its own 
interview. Recent research suggests, however, that system-
induced trauma experienced by child victims is more a result of 
encountering multiple interviewers, rather than multiple 
interviews.
    Very effective and non-traumatic techniques for eliciting 
children's disclosures through a series of carefully planned 
sessions with a single forensic interviewer have been 
developed. For example, the forensic evaluation model developed 
by Connie Carnes at the National Children's Advocacy Center is 
a multiple interview, single interviewer model that has been 
evaluated as very helpful with some children. This model has 
not been implemented in Indian lands as of yet.
    Concerning section 12, the use of tele-medicine, tele-
medicine technologies have great potential for improving the 
welfare of Indian children. Research has shown that only a 
small proportion of sexual abuse cases are confirmed through 
medical evidence. Rather, health professionals with particular 
expertise in child abuse often best serve by helping local 
practitioners to interpret the medical evidence in combination 
with the demeanor and comments of the child, parents, and 
others to reach conclusions about suspected abuse episodes.
    There is a dearth of professionals with special expertise 
in the diagnosis of child abuse. Still, those that are 
available should be actively recruited to increase the 
application of tele-medicine technologies. As with our 
experience in New Mexico using tele-medicine to connect 
pediatric specialists to rural practitioners in cases of 
infants who were fetally exposed to drugs, improved diagnostic 
capabilities can result in identifying the need for increased 
treatment capacity.
    Tele-medicine can also be very helpful in supporting on-
site mental health treatment providers, addressing risk factors 
associated with child abuse such as alcohol and drug problems, 
and many of the consequences of child abuse such as depression 
and suicide.
    I thank the committee for the opportunity to present these 
comments, and I would be happy to respond to any questions you 
might have.
    [Prepared statement of Mr. Steele appears in appendix.]
    The Chairman. Thank you very much, Dr. Steele.
    Mr. Cross, what is your view of what the administration 
and/or Congress has been doing about this issue?
    Mr. Cross. Well, there is failure to implement this 
particular legislation. I think the questions earlier were very 
appropriate. When you have a Federal law that is designed to 
deal with an issue and then there is no appropriation, not even 
a request for an appropriation that comes out of any 
administration from either side of the aisle, it is extremely 
disappointing to our tribal communities who are struggling to 
do something about this issue.
    The Chairman. Dr. Steele, you state that few child abuse 
criminal cases from Indian country result in convictions. Why 
is that?
    Mr. Steele. Many reasons. First of all, the issue of 
disclosure, I think because of cultural issues and communal 
living patterns, these cases are not as often reported. I think 
there are certainly issues of communication and coordination 
between tribal police and Federal Bureau of Investigation. I 
know that U.S. attorneys that in our district in New Mexico 
were often dissatisfied with the information that they were 
presented with to go forward with a criminal prosecution in 
those cases. That is a start.
    The Chairman. Chairman Suppah, how long have you been a 
member of your tribe? All your life? I guess my question was, 
how long have you been in tribal government?
    Mr. Suppah. This is my second term on the tribal council. 
Each term is three years. So I have been in tribal government 
for 6 years. I have lived there all of my life, except for 
about 6 years when I was away to college.
    The Chairman. And what trends have you seen in your time on 
the reservation, both as a tribal member and as a member of the 
tribal government, on child abuse?
    Mr. Suppah. I guess I can tell just generally, Senator. But 
I guess in looking, reflecting back, when the effort was made 
for maybe something called sexual predator registration in 
Indian country, and the roadblocks that immediately came up as 
far as sovereignty, et cetera, et cetera. I guess, parroting 
what my fellow witnesses have said, I guess the lack of good 
communication, linkage between all of the parties, whether they 
are tribal, IHS, or BIA, and the lack of coordinated data and 
statistics.
    As far as like your questions earlier, it is good to arrest 
somebody, but then what is your conviction rate? I think that 
data is not sufficient for us as a tribal government to really 
kind of take a closer look at this stuff and coordinate and 
proactively do something for that.
    I think that this is a very cross-cutting issue, as are 
many issues in Indian country in that I think that maybe just 
an example of what I talk about is, say, the new IHS policy of 
if my tribe chooses to develop and hire a new position, say, 
like a tribal psychiatrist, to, say, work with the, I guess the 
victims in this sense. We could do that under the existing 
money in IHS, but there would be no contract support dollars 
that would come along with that. So we are kind of like in a 
catch-22 situation, just like we are in many other places.
    I guess investigation, we are very restricted as far as how 
many FBI or Federal people or staff we have 638-ed over to Warm 
Springs. The one maybe that we do have is multi-tasks, and 
depending on his schedule et cetera, then we are at the mercy 
of if he has time to take these investigations on.
    The Chairman. I thank you.
    Mr. Suppah. May I say one more thing, Senator?
    The Chairman. Go ahead, please. Sure, absolutely.
    Mr. Suppah. I think that a common issue and problem among 
Indian country today in many areas is, say, like a transition 
house, you know, whether it is for meth or whether it is for 
sexual abuse or whatever, but it seems like that the tribes 
have a very difficult time in accessing money for anything like 
that. You know, it would make sense for us to maybe put 
together some sort of proposal, say, like on a Northwest 
regional basis to say how can we work together as Northwest 
tribes to maybe develop a centralized regional transitional 
house to where our victims have someplace to go to.
    Thank you.
    The Chairman. Thank you very much.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you.
    I would like to ask Mr. Cross, I mentioned that 60 or 65 
percent of the health care needs are met, according to the 
Indian Health Service. They will not say that on the record, 
but off the record they will say that. I think the fact is, no 
administration is asking for sufficient money, not the previous 
administration, not this one. But what happens to us is the 
Indian Health Service and folks in the agencies come to that 
table and they can't say anything other than what OMB asks them 
to say, and that is support the President's budget and telling 
us everything is nirvana and just fine.
    But isn't it the case, as you view these agencies and view 
the Congress, that the reason that this is not implemented, 
these authorization requirements are not implemented, is that 
they do not have the resources to implement them?
    Mr. Cross. That is correct. You heard I think in the 
testimony two things I think that are very telling. One is the 
mental health budget that was talked about in behavioral 
health. What was not said was that the current budget for 
mental health is for adult chronically mentally ill, less than 
2 percent of that figure goes to children's mental health. In 
that behavioral health budget, that 2 percent of that is a 
fairly small amount of money when you start lumping all of 
these things in. That is where the child protection stuff falls 
out.
    So by the time you get to the crumbs for any kind of child 
protection issue, there is very little left for any meaningful 
program.
    Senator Dorgan. Would you submit some additional 
information about the 2 percent? We could use that as well.
    Mr. Cross. I would be glad to.
    I think the other issue that I would mention that, with all 
due respect to Mr. Burrus, those 100 agents that he talked 
about, 114 agents addressing tribal communities, somewhere in 
the neighborhood of 30,000 Indian children are thought to be 
abused and neglected each year. Most of that is neglect, about 
80 percent, somewhere in that neighborhood.
    Of those that experience abuse, probably about 10 percent 
of those are raised to the level of any kind of criminal 
investigation, prosecution. That means there is about somewhere 
in the neighborhood of 3,000 cases to be investigated each 
year, and 100 agents to try to investigate 3,000 cases serious 
enough to be taken to Federal prosecution is not even close to 
what is needed for an effective response.
    So I think it is important to take a look at these numbers 
and to see what the reality is on the ground. What we are 
hearing in the Northwest, for example, is that of 100 cases 
that rose to that level, only two will go to Federal 
prosecution.
    Senator Dorgan. Chairman Suppah, have there been youth 
suicide problems on your reservation or the reservations in 
Oregon?
    Mr. Suppah. Senator Dorgan, yes, there have been. A lot of 
it, like the Chairman kind of speaks to, is because of the meth 
epidemic and its implications to push our people from 2002 to 
2005 to have an increase of approximately 50 percent. So yes, 
everything is bumping everything.
    Senator Dorgan. I had a listening session a while back--I 
guess it was probably 6 months ago--with some tribes and some 
people that just showed up. One young woman stood up and she 
said that she had tried to kill herself. I think she was about 
19 years old. She said she had tried to take her own life. She 
said, ``My father repeatedly raped me over many, many years,'' 
and she described the circumstances of her youth and what had 
caused her to try to take her own life.
    I asked, was there not someone you could report to, or 
could call? She said, ``Well, I obviously couldn't tell my 
mother. My mother would not have believed me.'' She went 
through the whole list of things that a young child goes 
through in a circumstance like that. It was really pretty 
unbelievable testimony. It wasn't at a hearing, but just a 
listening session, and pretty unbelievable.
    Obviously, she tried to take her life, and she survived. 
She is now in college and doing pretty well, but she was a 
victim of child abuse, very serious child abuse, for a long 
period of time, and felt like there was nothing really that she 
could do to reach out. So she didn't, and it took her some 
years then to stand up at a meeting at some point and say, ``I 
was a victim.''
    I do think one of the things that the chairman and I have 
done is introduce a piece of legislation that provides for some 
funding for what is called tele-mental health. That is not 
certainly a full substitute for the mental health services that 
ought to be available to children, abused children, but it 
nonetheless at least begins walking down the road to address 
some of these mental health issues that are at this point not 
available on these reservations. So we are trying to find some 
other innovative ways, but the fact is we are not ever going to 
begin to address this issue in a significant way unless we add 
some resources and require there to be programs established on 
these reservations and in the regions.
    As I said, just the crumbs that would fall off of a $92-
billion request would more than adequately fund most of these 
things, but we don't even get the crumbs in most cases, and 
that is regrettable. I think the reason the chairman and I have 
been holding these hearings dealing with a wide range of Indian 
issues, today child abuse and child protection, is because 
there is such a need and there is such an important requirement 
for us to determine how we can provide some focus to this and 
get the Congress to understand its urgency.
    So I appreciate the testimony from all three of the 
witnesses. You and the previous panel will add to the 
information that we have and give us the opportunity to decide 
exactly how we want to proceed to see if we can't better 
address this problem as the U.S. Congress.
    The Chairman. I thank the witnesses. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 10:50 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of James H. Burrus, Jr., Acting Assistant Director, 
    Criminal Investigative Division Federal Bureau of Investigation

    Good morning Chairman McCain, Vice Chairman Dorgan, and members of 
the Committee on Indian Affairs. I appreciate the opportunity to appear 
and provide testimony about the FBI and its work in Indian country, 
especially as it relates to the protection of Indian children.
    The FBI has a long history of service to the Native American people 
throughout the United States and dedicated Special Agents of the FBI's 
Indian Country Program work hard to deliver quality law enforcement 
service to tribal communities of all sizes. We remain strongly 
committed to our role in Indian country and to our partnerships with 
tribal, local, State, and Federal agencies in Indian country.
    There are 561 federally recognized Indian tribes in the United 
States and approximately 297 Indian reservations with over 1 million 
Native American residents on or near reservation lands. The FBI has 
Federal law enforcement responsibility on more than 200 of those Indian 
reservations and Federal criminal jurisdiction over acts directly 
related to Indian gaming regardless of jurisdiction status.
    The FBI currently has 114 Special Agents addressing 2,076 Indian 
country matters in 22 field offices. Eight FBI field offices account 
for nearly 90 percent of all Indian country casework in the FBI and the 
FBI's Indian country resources are focused on reservations where the 
FBI has primary Federal investigative authority. The FBI's priorities 
in Indian country focus on the most serious crimes of violence, 
including homicide, child sexual and physical abuse, and violent 
assault. FBI investigations in these priority categories comprise over 
70 percent of all FBI investigations in Indian country. The challenges 
do not end there as crime related to gangs and drugs are on the 
increase, Indian gaming investigations remain important, and the FBI 
always stands ready to protect tribal communities from political 
corruption. The FBI in Indian country is simultaneously addressing many 
different aspects of crime in Indian country and remains fully engaged.
    During the period covering fiscal years 2003 through 2006, the FBI 
initiated 1,658 investigations and made 537 arrests in matters 
involving Indian child sexual abuse. During the same period, the FBI 
initiated 134 investigations and made 39 arrests in matters involving 
Indian child physical abuse. This represents approximately 30 percent 
of all FBI investigations in Indian country during that period. Crimes 
against Indian children have been, and will remain, a top priority for 
the FBI.
    The FBI routinely receives reports of Indian child abuse from 
various local law enforcement agencies in Indian country, including the 
Bureau of Indian Affairs, Office of Law Enforcement Services [BIA-
OLES]. In cases of Indian child abuse reports received by FBI field 
divisions, investigations are conducted either by FBI Special Agents or 
task force members working with the FBI on Indian Country Safe Trails 
Task Forces [STTF]. In limited circumstances, the allegations may be 
referred to tribal, BIA, or other law enforcement agencies for 
investigation and presentation to tribal courts as deemed necessary.
    Additionally, the FBI receives referrals of allegations of Indian 
child abuse from other public service entities such as schools, medical 
professionals and child protective service organizations. Some of these 
referrals are the direct result of FBI participation on Multi-
Disciplinary Teams [MDT] or Child Protection Teams [CPT] in Indian 
communities. There may be instances where child abuse complaints are 
received and investigated by other law enforcement agencies in Indian 
country and the FBI is not made immediately aware of those allegations. 
However, the FBI and other law enforcement partners in Indian country 
strive to ensure all allegations of child abuse are reported to us and 
immediately addressed.
    Allegations of child abuse are documented in FBI investigative 
files if an investigation is initiated. In cases where the FBI refers 
the allegations to either tribal law enforcement or BIA-OLES, the 
allegation may be documented in a complaint form or other 
communication. Child abuse allegations received by the FBI and 
documented in a format other than an investigative file represent child 
abuse reports with various dispositions, including unsubstantiated 
reports, referral to other investigative agencies, or immediate 
declinations of prosecution.
    The Office for Victim Assistance [OVA] ensures that victims of 
Federal crimes investigated by the FBI are afforded the opportunity to 
receive notification of investigation status and receive victim 
services. OVA employs 31 Victim Specialists dedicated to Indian 
country, serving 38 Indian nations. In addition to providing 
information on victim's rights and the criminal justice process, these 
Victim Specialists also provide on-scene crisis intervention, accompany 
agents to interviews, arrange forensic exams, and accompany victims to 
court proceedings. Victim Specialists establish working relationships 
with tribal councils to coordinate services and assure cultural 
understanding.
    Our partnerships with Indian country law enforcement and tribal 
communities are critical to successfully addressing Indian child abuse. 
There are several successful programs in Indian country that I would 
like to highlight.
    Since fiscal year 2004, the FBI has supported the Tribal Tele-
Medicine Initiative in South Dakota, a joint effort by the FBI's 
Minneapolis Division, Midwest Children's Research Center, Indian Health 
Service, Department of Justice, Rosebud Sioux Tribe, Midwest Regional 
Children's Advocacy Center, and the National Children's Alliance. The 
goals of this initiative are to provide a means to introduce forensic 
pediatric specialists early into Indian country child abuse 
investigations and to build stronger multi-disciplinary teams in Indian 
country. This program utilizes video teleconferencing capability, along 
with specialized audio and video equipment, to connect the examining 
physician in Indian country with child abuse medical experts in an 
offsite location. This process not only allows expert medical 
evaluation of the child victim but also minimizes trauma to the child 
that may result from multiple medical examinations and interviews. 
Through this project, experienced medical and treatment personnel are 
also accessible to service areas and tribal facilities in rural or 
isolated communities.
    The FBI also supports the Tohono O'Odham Reservation Children's 
House [TORCH], a joint effort between the Tohono O'Odham Nation Police 
Department [TOPD], FBI, and the Southern Arizona Children's Advocacy 
Center [SACAC], which serves to exponentially enhance the overall 
investigative effectiveness in addressing child sexual assaults. TORCH 
provides the child victims of sexual/physical abuse and their families 
with an immediate, safe, child-friendly and culturally sensitive 
environment that is conducive to effective forensic interviewing. These 
two efforts are directly aimed at improving the quality of child abuse 
investigations while minimizing additional trauma to the child victim.
    In circumstances where the establishment of a permanent forensic 
center is not an option, the FBI partners with other organizations to 
seek creative solutions to problems. One example is the FBI's use of 
the Childhelp Children's Mobile Advocacy Center of Northern Arizona 
during child abuse and sexual assault investigations. This mobile unit 
in Arizona travels to or near the victim's reservation to prevent the 
child and family from having to travel long distances to an advocacy 
and medical facility for interview and physical examination. By 
delivering the forensic interview and sexual assault examination 
capability to the child victim, the traumatic effect on the child and 
family is vastly reduced.
    The FBI faces many unique obstacles in investigating crimes against 
children in Indian country. Included among those are remote territories 
requiring substantial travel for investigation, long travel distances 
for access to technical expertise, reluctant witnesses due to close 
family structures in most tribal communities, and cultural 
sensitivities in tribal relations.
    The FBI is fully committed to preparing Indian country law 
enforcement, including FBI Special Agents, with the knowledge and 
skills required to address such important investigations. Pursuant to a 
mandate from Congress to provide training to Indian country law 
enforcement officers, the FBI has trained nearly 5,500 Indian country 
law enforcement officers and agents since 1997. This training is 
closely coordinated with the BIA's Indian Police Academy and together 
the FBI and BIA will offer 21 regional training conferences during 
fiscal year 2006, including specialized training in child abuse, 
forensic interviewing of abused children, crime scene investigation, 
child sexual assault and abuse investigations.
    The FBI is committed to protecting Native American children from 
abuse and what clearly constitutes a threat to the future of Indian 
children and their communities. We look forward to working with this 
committee to accomplish this worthwhile goal. I would now be happy to 
answer any questions.

[GRAPHIC] [TIFF OMITTED] T6699.001

[GRAPHIC] [TIFF OMITTED] T6699.002

[GRAPHIC] [TIFF OMITTED] T6699.003

[GRAPHIC] [TIFF OMITTED] T6699.004

[GRAPHIC] [TIFF OMITTED] T6699.005

[GRAPHIC] [TIFF OMITTED] T6699.006

[GRAPHIC] [TIFF OMITTED] T6699.007

[GRAPHIC] [TIFF OMITTED] T6699.008

[GRAPHIC] [TIFF OMITTED] T6699.009

[GRAPHIC] [TIFF OMITTED] T6699.010

[GRAPHIC] [TIFF OMITTED] T6699.011

[GRAPHIC] [TIFF OMITTED] T6699.012

[GRAPHIC] [TIFF OMITTED] T6699.013

[GRAPHIC] [TIFF OMITTED] T6699.014

[GRAPHIC] [TIFF OMITTED] T6699.015

[GRAPHIC] [TIFF OMITTED] T6699.016

[GRAPHIC] [TIFF OMITTED] T6699.017

[GRAPHIC] [TIFF OMITTED] T6699.018

[GRAPHIC] [TIFF OMITTED] T6699.019

[GRAPHIC] [TIFF OMITTED] T6699.020

[GRAPHIC] [TIFF OMITTED] T6699.021

[GRAPHIC] [TIFF OMITTED] T6699.022

[GRAPHIC] [TIFF OMITTED] T6699.023

[GRAPHIC] [TIFF OMITTED] T6699.024

[GRAPHIC] [TIFF OMITTED] T6699.025

[GRAPHIC] [TIFF OMITTED] T6699.026

[GRAPHIC] [TIFF OMITTED] T6699.027

  Prepared Statement of Robert McSwain, Deputy Director of the Indian 
                          Health Service [IHS]

    Mr. Chairman and members of the committee:
    Good morning, I am Robert McSwain, Deputy Director of IHS. Today, I 
am accompanied by Dr. Jon Perez, director, Division of Behavioral 
Health, IHS. We are pleased to have this opportunity to testify on 
behalf of Secretary Leavitt on S. 1899, the ``Indian Child Protection 
and Family Violence Prevention Act Amendments of 2005''.
    The IHS has the responsibility for the delivery of health services 
to more than 1.8 million federally recognized American Indians and 
Alaska Natives through a system of IHS, tribal, and urban [I/T/U] 
operated facilities and programs based on treaties, judicial 
determinations, and Acts of Congress. The mission of the agency is to 
raise the physical, mental, social, and spiritual health of American 
Indians/Alaska Natives to the highest level, in partnership with the 
population we serve. The agency goal is to assure that comprehensive, 
culturally acceptable personal and public health services are available 
and accessible to the service population. Our foundation is to promote 
healthy American Indian/Alaska Native people, communities, and cultures 
and to honor and protect the inherent sovereign rights of tribes.
    Secretary Leavitt has also been proactive in raising the awareness 
of tribal issues within the Department by contributing to our capacity 
to speak with one voice, as One Department, on behalf of tribes. As 
such, he recognizes the authority provided in the Native American 
Programs Act of 1974 and utilizes the Intra-departmental Council for 
Native American Affairs to consider cross cutting issues and seeks 
opportunities for collaboration and coordination among Department 
programs serving Native Americans. The council serves as an advisory 
body to the Secretary and has responsibility to assure that Native 
American policy is implemented across all divisions in the department 
including human services programs. As vice chair of the secretary's 
council, the IHS Director facilitates advocacy within the department, 
promotes consultation, reports directly to the Secretary, collaborates 
directly with the assistant secretary for Health, advises the heads of 
all the department's divisions and coordinates activities of the 
Department on Native American Health and Human Services Issues.
    Our Indian families are strong, but many are besieged by the 
numbing effects of poverty, lack of economic resources, and limited 
opportunity. The Indian Child Abuse and Family Violence Prevention Act 
[title, IV of Public Law 101-630] was enacted in 1990 and the IHS has 
since endeavored to meet the spirit and intent of that act. In 1996 the 
IHS instituted the Domestic Violence and Child Abuse Prevention 
Initiative to address more directly the concerns regarding violence 
against women and child abuse and neglect in American Indian/Alaska 
Native communities. The initiative's purpose is to improve the IHS, 
tribal, and urban Indian health care response to domestic violence by 
providing education, training, and support to health care providers. 
The overarching goal is to improve health care providers' capability to 
provide early identification and culturally appropriate responses to 
victims of familial violence, particularly women and children, in 
American Indian/Alaska Native communities.
    In support of the initiative, the IHS works independently as well 
as collaboratively with other Federal agencies concerned with domestic 
violence issues to:
    1. Provide programs and products.
    2. Provide training and training materials.
    3. Identify other resources and potential funding streams for 
American Indian/Alaska Native programs.
    4. Seek to identify sources for funding and services for IHS and 
American Indian/Alaska Native tribal community clinics and 
organizations that provide services to domestic violence victims and 
their children.
    5. Facilitate the development of protocols on domestic violence 
that are being implemented in IHS clinics and hospitals to ensure that 
victims of domestic violence receive appropriate treatment and 
referrals.
    6. Insure the quality and character of the IHS staff providing 
services to our American Indian/Alaska Native families and children.
    Some of the actions taken to achieve these goals include:
    The IHS and the Bureau of Indian Affairs [BIA] published the IHS/
BIA Child Protection Handbook in 2005. It contains a wealth of 
information for everything from forming child protection teams to 
offering model tribal legislative language for child protection codes 
on reservation. In addition, it is a comprehensive guide to child 
protection for community programs. The Handbook is also connected to 
the University of Oklahoma's Center on Child Abuse and Neglect website 
(www.ccan.ouhsc.edu), so up-to-date information is shared in realtime 
with programs nationally. We are submitting a copy of the handbook on 
CD as part of this testimony for the committee's information and use. 
We believe it is a landmark publication and a means to support 
communities with limited resources for such efforts.
    As part of this overall approach, a train-the-trainer child 
protection model project is funded through an Interagency Agreement 
with the Department's Administration for Children and Families, Office 
of Child Abuse and Neglect. As part of this program, the University of 
Oklahoma's Making Medicine project was funded for several years and 
trained over 150 professionals working with Native children on 
reservations around the country. Currently the project is being 
implemented by Support Services International, Inc. The project is a 2-
week, culturally sensitive training program on the treatment of child 
physical and sexual abuse with consultation and follow-up. Once the 
participant completes the 2-week training, the Project Making Medicine 
staff schedules an on-site visit at the participant's local community 
and assists the participant in conducting a community wide training in 
the prevention and awareness of child abuse and neglect.
    With funds provided by IHS, the University of Oklahoma Health 
Sciences Center has completed a child protection manual available to 
the IHS, BIA, and tribal and urban Indian health staff involved with 
providing child abuse and neglect and domestic violence services in 
American Indian/Alaska Native communities. The Handbook is formatted to 
serve dual purposes as a training manual (goals, objectives, agenda, 
small group activities, et cetera.) and/or as a technical manual 
(statistics, definitions, indicators, legal and ethical 
responsibilities, group dynamics, confidentiality, referrals, treatment 
issues, standard forms/templates, resources, et cetera.)
    The IHS has developed the Mental Health and Community Safety 
Initiative [MHCSI] for American Indian/Alaska Native Children, Youth, 
and Families. This grant program currently receives annual funding of 
$400,000. For fiscal years 2003-2006, the project has operated under 
cooperative agreements to develop innovative strategies that focus on 
the mental health, behavioral, substance abuse, and community safety 
needs of American Indian/Alaska Native young people and their families 
who are involved in or at risk for involvement with the juvenile 
justice system. Beginning in fiscal year 2007 the projects will be 
implemented as grants. This effort was first initiated through the 
White House Domestic Policy Council to provide federally recognized 
tribes and eligible tribal organizations with assistance to plan, 
design, and assess the feasibility of implementing a culturally 
appropriate system of care for American Indians/Alaska Natives. The 
MHCSI Planning Phase [years 1-3] cooperative agreements will be 
completed at the end of fiscal year 2005 with an Implementation Phase 
beginning in fiscal year 2007 which will provide program services 
planned in the first phase. An important focus will be to integrate 
traditional healing methods indigenous to the communities with 
conventional treatment methodologies. One of the primary foci of the 
program is child abuse and neglect to identify and develop systems of 
care for victim of child abuse and neglect who are involved and/or at 
risk of being involved with the juvenile justice system. These 
cooperative agreements are established under the authority of 25 USC 
1621h(m). Plans are to continue funding of only one cycle for each of 
the fiscal years.
    Section 408 of Public Law 101-630 requires the IHS and the BIA to 
compile a list of all authorized positions within the IHS where the 
duties and responsibilities involve regular contact with, or control 
over, Indian children; to conduct an investigation of the character of 
each individual who is employed, or is being considered for employment 
in a position having regular contact with, or control over, Indian 
children and to prescribe by regulations the minimum standards of 
character that an individual must meet to be appointed to positions 
having regular contact with, or control over, Indian children. The law 
also requires that the IHS and BIA regulations prescribing the minimum 
standards of character ensure that none of the individuals appointed to 
positions which involve regular contact with, or control over, Indian 
children have been found guilty of, or entered a plea of nolo 
contendere or guilty to, any felonious offense, or any two or more 
misdemeanor offenses under Federal, State, or tribal law involving 
crimes of violence; sexual assault, molestation, exploitation, contact 
or prostitution; crimes against persons; or offenses committed against 
children.
    Section 408 (c) requires that tribes or tribal organizations who 
receive funds under the Indian Self-Determination and Education 
Assistance Act, Public Law 93-638, employ individuals in positions 
involving regular contact with or control over Indian children only if 
the individuals meet standards of character no less stringent than 
those prescribed under the IHS regulations.
    The IHS published an Interim Final Rule establishing minimum 
standards of character and the regulations became effective November 
22, 2002. The final regulations incorporate technical amendments 
enacted by Congress on December 27, 2000, pursuant to section 814, the 
Native American Laws Technical Corrections Act of 2000. The final 
regulations established that the minimum standards of character have 
been met only after individuals, in positions involving regular contact 
with or control over Indian children, have been the subject of a 
satisfactory background investigation and it has been determined that 
these individuals have not been found guilty of, or entered a plea of 
nolo contendere or guilty to, any felonious offense, or any two or more 
misdemeanor offenses under Federal, State, or tribal law involving 
crimes of violence; sexual assault, molestation, exploitation, contact 
or prostitution; crimes against persons; or offenses committed against 
children.
    The results of the efforts highlighted above, as well as the 
increased IHS and tribal emphasis on daily clinical identification of 
and care for victims of abuse have served to stabilize, not reduce this 
problem. Data indicate an average of approximately 4,500 clinical 
contacts a year related to child abuse, neglect, and the psychological 
after effects of such victimization. The number of contacts has 
remained at approximately the same level for several years. It is high, 
it is unacceptable, it happens for many reasons, but it does not happen 
in isolation from the economic and social problems plaguing Indian 
Country. It will take resources, not only for IHS, but for a broad 
range of Federal and tribal support to improve not just clinical 
services for abuse victims, but to positively affect the underlying 
economic and social conditions from which so much of the violence in 
Indian Country springs. IHS's fiscal year 2007 budget request includes 
a total of $212 million for behavioral health. (mental health, alcohol 
and substance abuse), an increase of 5 percent over fiscal year 2006.
    The IHS plans to continue its present projects and initiative 
efforts to address domestic violence and child abuse and neglect. It 
will also seek to expand services within American Indian/Alaska Native 
communities by consulting with IHS health care facilities, tribes, and 
urban Indian clinics as well as through collaboration with other 
Federal agencies because the goal of reducing and ultimately preventing 
violence among our families and against our children will require all 
our efforts. I am confident in IHS's commitment to that goal and its 
ability to effectively and innovatively use the resources it is given 
to maximum positive effect. There is a long road ahead of us, but we 
are prepared to continue our efforts to address these important issues.
    Mr. Chairman, that concludes my prepared remarks and I would be 
pleased to answer any questions you or other members of the committee 
may have.
                                 ______
                                 

Prepared Statement of William P. Ragsdale, Director, BIA, Department of 
                              the Interior

    Good morning, Mr. Chairman, Mr. Vice Chairman and members of the 
committee. My name is Patrick Ragsdale and I am the director of the BIA 
at the Department of the Interior. I am pleased to be here today to 
provide the department's testimony on S. 1899, a bill to amend the 
Indian Child Protection and Family Violence Prevention Act to identify 
and remove barriers to reducing child abuse, to provide for 
examinations of certain children and for other purposes.
    The department appreciates the committee's efforts to prevent 
violence to children and families in Indian country. As Chairman McCain 
stated when introducing the bill, the benefits of the existing act have 
not been fully realized. We do not have a firm grip on the extent of 
violence to families and children in Indian country and that 
information is crucial for any planning effort to reduce such violence. 
Therefore, the data collection provisions proposed in section 4 of the 
bill are critical.
    The department supports the bill's efforts to identify and remove 
impediments to reducing child abuse. The majority of governmental 
efforts regarding child abuse have focused on treatment or law 
enforcement options after the abuse has occurred. While these are 
important aspects of a comprehensive child protection program, of 
course, it is equally essential that we develop ways to assist tribes 
in their ability to prevent the abuse before it occurs. Therefore, the 
department supports the study to identify impediments to reducing child 
abuse, but believes the study should not only include descriptions of 
reporting, prosecuting, and treating child abuse, as proposed in the 
bill, but should include an assessment of impediments to preventing 
child abuse as well. We believe that there may be other provisions that 
could be added to the bill that would bolster our efforts to develop 
culturally appropriate prevention techniques, and we would be happy to 
discuss these ideas with the committee.
    With regard to the implementation of the law, we agree there may be 
circumstances in which a pardon, set aside, or reversal should be 
considered, but we recommend the definition of ``conviction'' at 
section 3202(5) require a judicial funding regarding the guilt of the 
individual to avoid inclusion of expungements, pardons, reversals, and 
set asides for ``employment purposes'' or that are limited and intended 
only to ``restore certain civil rights''. Limiting the exclusion to 
pardons, set asides, or reversals based on innocence gives clarity to 
the application of the minimum standards of character at section 3207 
and is consistent with Merit Systems Protection Board decisions 
regarding suitability for Federal service and eligibility for access to 
classified information. See also Delong v. Department of Health and 
Human Services, 264 F.3d 1334 (Fed. Cir. 2001), cert denied, 536 U.S. 
958 (2002) and Bear Robe v. Parker, 270 F.3d 1192 (8th Cir. 2001).
    Under the Indian Law Enforcement Reform Act the BIA is responsible 
for, or for assisting in the provision of, providing law enforcement 
services within Indian country.
    Our Office of Law Enforcement Services meets that function by 
enforcing Federal criminal laws. In our efforts to protect children we 
have become all too aware of a hole in the law that should be 
addressed. Under the Major Crimes Act 18 U.S.C. 1153, child neglect 
within Indian country is not a Federal felony. For example, if an 
intoxicated driver runs over a toddler, and the child dies, Federal 
felony manslaughter, may be charged. If the child survives but is 
disabled for life, no Federal charges can be filed. The department 
supports fixing the omission by adding the words ``felony child 
neglect'' to the list of Federal offenses.
    The BIA, other Federal agencies, and Indian tribal governments are 
ready to work together to develop and implement a comprehensive child 
protection program that addresses abuse prevention, law enforcement, 
and treatment efforts in those unfortunate cases where abuse does 
occur.
    This concludes my prepared statement. I want to thank you for 
introducing this legislation and for your support for the protection of 
Indian children. I will be happy to answer any questions you may have.

[GRAPHIC] [TIFF OMITTED] T6699.028

[GRAPHIC] [TIFF OMITTED] T6699.029

[GRAPHIC] [TIFF OMITTED] T6699.030

[GRAPHIC] [TIFF OMITTED] T6699.031

[GRAPHIC] [TIFF OMITTED] T6699.032

[GRAPHIC] [TIFF OMITTED] T6699.033

[GRAPHIC] [TIFF OMITTED] T6699.034

[GRAPHIC] [TIFF OMITTED] T6699.035

[GRAPHIC] [TIFF OMITTED] T6699.036

[GRAPHIC] [TIFF OMITTED] T6699.037

[GRAPHIC] [TIFF OMITTED] T6699.038

[GRAPHIC] [TIFF OMITTED] T6699.039

[GRAPHIC] [TIFF OMITTED] T6699.040

[GRAPHIC] [TIFF OMITTED] T6699.041

[GRAPHIC] [TIFF OMITTED] T6699.042

[GRAPHIC] [TIFF OMITTED] T6699.043

[GRAPHIC] [TIFF OMITTED] T6699.044

[GRAPHIC] [TIFF OMITTED] T6699.045

[GRAPHIC] [TIFF OMITTED] T6699.046

[GRAPHIC] [TIFF OMITTED] T6699.047

[GRAPHIC] [TIFF OMITTED] T6699.048

[GRAPHIC] [TIFF OMITTED] T6699.049

[GRAPHIC] [TIFF OMITTED] T6699.050

[GRAPHIC] [TIFF OMITTED] T6699.051

[GRAPHIC] [TIFF OMITTED] T6699.052

[GRAPHIC] [TIFF OMITTED] T6699.053

[GRAPHIC] [TIFF OMITTED] T6699.054

[GRAPHIC] [TIFF OMITTED] T6699.055

[GRAPHIC] [TIFF OMITTED] T6699.056

[GRAPHIC] [TIFF OMITTED] T6699.057

[GRAPHIC] [TIFF OMITTED] T6699.058

[GRAPHIC] [TIFF OMITTED] T6699.059

 Prepared Statement of Ron Suppah, Chairman Confederated Tribes of the 
                   Warm Springs Reservation of Oregon

    Mr. Chairman, members of the committee, I am Ron Suppah, chairman 
of the tribal council of the Confederated Tribes of the Warm Springs 
Reservation of Oregon. Thank you for the opportunity to testify today 
in support of S. 1899, the Indian Child Protection and Family Violence 
Prevention Reauthorization Act of 2005.
    In presenting this testimony, I would like to acknowledge former 
Warm Springs Chairman Garland Brunoe, who testified last Congress 
before this committee, in September 2003, on very similar legislation, 
S. 1601. I would also particularly like to acknowledge Warm Springs 
Tribal Judge Lola Sohappy, who retired this past July after many years 
of dedicated service to our community and to our young people. Judge 
Sohappy was very active in the National Indian Child Welfare 
Association.
    The 650,000 acre Warm Springs Reservation in north Central Oregon 
is the home of about 3,300 of our 4,400 tribal members. Additionally, 
we estimate about 950 non-members reside on our reservation. Within our 
residential population, about 1,600 of our tribal members, or better 
than 40 percent, are 18 years old or younger.
    Like many reservations, our communities are rural, and individual 
residences are often isolated. Economic opportunities are limited, and 
unemployment and poverty are well above national averages by almost any 
measure. So, too, are substance abuse and violence, including family 
violence. When much of your population is young, that violence all too 
often involves children.
    As Chairman Brunoe testified last Congress, unfortunately this 
applies to Warm Springs. In 2002, 402 Warm Springs children were served 
by Warm Springs Child Protection Services [CPS]. In 2005, the number of 
our children that received CPS services was 453. The trend appears to 
be increasing and, in any event, is persistently too high.
    Our tribe is doing all we can to address the very serious issue. 
While our basic capacity in this field is strained, we are trying to 
make use of our unique circumstances.
    Our population is not large, and because Warm Springs is exempt 
from Public Law 280 and our reservation is almost a solid block of 
trust land, we exercise exclusive jurisdiction over our tribal child 
welfare cases. We have our own Child Protective Services agency, and do 
not have to rely on the State for case management, investigations, and 
other services. Without competing demands of state regulation, we are 
able to craft our policies and actions in a manner that is sensitive to 
the needs of our own community.
    While we exercise our own jurisdiction, we do try to work closely 
with the State of Oregon. Warm Springs is one of the few tribes 
nationwide that has developed a tribal-State title IV-e Foster Care 
Maintenance Payment agreement with the State that allows the tribe to 
receive Federal funds for maintenance payments for children placed in 
foster care. The agreement also allows the tribe to receive an 
administrative match for services, training, and associated expenses 
for children qualifying for IV-e support. This allows the tribe to 
participate on the same footing as a state in developing and 
maintaining a foster care program for children rather than placing them 
in the custody of the state for these services.
    Warm Springs still has an array of jurisdictional issues with which 
we must deal. Criminal child abuse actions by non-Indians must be 
addressed by the State. When Federal crimes are specifically 
identified, be they Indian or non-Indian related, the Federal Bureau of 
Investigation [FBI] must be called in. And because Warm Springs 
children attend local public schools, any child abuse or neglect issues 
identified there are reported first to the county, and only thereafter 
to our Child Protective Services or the Warm Springs Police Department.
    Jurisdictional issues are complicated and not easy to resolve, but 
improved communication and coordination can help. Accordingly, we 
support S. 1899, including section 4 which will provide centralized 
gathering of data on Indian child abuse and annual reporting to 
Congress so a clearer picture of this often unreported or under-
reported activity can be developed. We also understand the need for 
section 5, to address due process and other central registry 
implementation issues. We particularly support section 8, which 
clarifies the range of personnel who may be subject to background 
checks and specifies standards for those checks.
    But more than anything else, the overall reauthorization of the 
Indian Child Protection and Family Violence Prevention Act, and its 
funding, is essential.
    As Chairman Brunoe testified last Congress, child abuse and family 
violence continue to devastate Indian communities. Because these 
problems tend to occur in private and the victims are frightened and 
silent, they do not attract much public attention. But their 
consequences are far reaching and long lasting.
    Because child abuse and family violence are often hidden from view 
and their consequences can be so personal and profound, child 
protection and the prevention of associated family violence is very 
labor intensive. Abused or neglected children require attentive and 
careful handling. Their family situations can often be explosive. At 
Warm Springs, in addition to our Child Protection Services agency, 
child protective activities significantly involve the tribal police, 
the tribal courts, tribal prosecution, community services, and medical 
personnel, including mental health practitioners and physicians 
experienced in child abuse forensics.
    But Child Protection Services is the agency that ties all these 
functions together, and their task is multi-faceted and complicated. 
CPS must remove children from the home, temporarily house them, and 
find short term and long term foster homes, which must be monitored. 
CPS must provide for the direct needs of the child, including 
counseling and treatment, clothing and education, and transportation. 
And CPS seeks to reunite families and help their stability. They have 
to investigate and help prosecute child abuse charges. And throughout 
all this, they must meet rigorous reporting requirements. At Warm 
Springs, our Child Protective Services staff totals nineteen full time 
personnel and three part time. Currently, we have three case workers, 
each of whom must handle well in excess of 100 cases a year. We also 
engage five full-time and two part-time Protective Care Providers to 
operate our 24-hour emergency shelter.
    Clearly, our child protection capacity at Warm Springs desperately 
needs assistance, almost across the board. Based on our circumstances, 
we particularly need at least two additional case workers, and two 
additional CPS assistants, who monitor and assist in-home situations. 
We also need a supervisor to oversee personnel and help gather and 
process reporting requirements. We also need our own investigator, 
because the single investigator now on our reservation can only devote 
a very insufficient portion of his time to child abuse cases. The need 
stretches out to other community service agencies, including Juvenile 
Services, police and medical services, and our court system.
    Mr. Chairman, this long list only serves to highlight that the 
Indian Child Protection and Family Violence Prevention Act needs to be 
reauthorized. But more importantly, it highlights that the basic 
promise of the act needs the commitment of Federal agencies--the BIA 
and the IHS--to be realized. The BIA and the IHS must live up to their 
obligations to the act and to our communities by budgeting and pursuing 
the appropriations that are vital to securing our children's future. As 
many tribes know, our children are our future, and our children all too 
often are hanging by a thread.
    Mr. Chairman, that concludes my testimony. Thank you very much.

                                 <all>

</pre></body></html>
